fT

@OCKLE

2311 Douglas Street + E-Mail Address:
Omaha, Nebraska 68102-1214 Legal B tiefs contact@cocklelegalbriefs.com
1-800-225-6964 Web Site

(402) 342-2831

www.cocklelegalbriefs.com
Fax: (402) 342-4850

No. 19-423

BRIAN KIRK MALPASSO, et al.,
Petitioners,
v.
WILLIAM M. PALLOZZI, in his official
capacity as Maryland Secretary of State Police,
Respondent.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the BRIEF IN OPPOSITION TO
PETITION FOR A WRIT OF CERTIORARI in the above entitled case complies with the typeface
requirement of Supreme Court Rule 33.1(b), being prepared in New Century Schoolbook 12 point

for the text and 10 point for the footnotes, and this brief contains 6849 words, excluding the parts
that are exempted by Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 18th day of December, 2019.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

General Notary . ‘
State of Nebraska . Lee ,
My Commission Expires Nov 24, 2020 z

Notary Public Affiant

 

 

38961
